<html>
<title> - COAST GUARD MISSION BALANCE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                      COAST GUARD MISSION BALANCE

=======================================================================


                                (113-2)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                COAST GUARD AND MARITIME TRANSPORTATION

                                OF THE

                              COMMITTEE ON

                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES


                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2013

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/

        committee.action?chamber=house&committee=transportation






                  U.S. GOVERNMENT PRINTING OFFICE
79-555                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
VACANCY
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                  DUNCAN HUNTER, California, Chairman
DON YOUNG, Alaska                    JOHN GARAMENDI, California
HOWARD COBLE, North Carolina         ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
PATRICK MEEHAN, Pennsylvania         RICK LARSEN, Washington
STEVE SOUTHERLAND, II, Florida,      TIMOTHY H. BISHOP, New York
  Vice Chair                         JANICE HAHN, California
TOM RICE, South Carolina             LOIS FRANKEL, Florida
TREY RADEL, Florida                  NICK J. RAHALL, II, West Virginia
VACANCY                                (Ex Officio)
BILL SHUSTER, Pennsylvania (Ex 
    Officio)
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Vice Admiral Peter V. Neffenger, Deputy Commandant for 
  Operations, U.S. Coast Guard...................................     3

 PREPARED STATEMENTS AND ANSWERS TO QUESTIONS FOR THE RECORD SUBMITTED 
                              BY WITNESSES

Vice Admiral Peter V. Neffenger:

    Prepared statement...........................................    29
    Answers to questions from the following Representatives:

        Hon. John Garamendi, of California.......................    33
        Hon. Rick Larsen, of Washington..........................    43

                       SUBMISSIONS FOR THE RECORD

U.S. Coast Guard's inserts for the record:

    Student diversity at the U.S. Coast Guard Academy............    19
    Status of the U.S. Coast Guard's business case analysis of 
      the cost of reactivating the Polar Sea icebreaker..........    20
    U.S. Coast Guard's fiscal year 2013 Response Boat-Medium 
      acquisition plans..........................................    21
    U.S. Coast Guard's budgetary reductions under sequestration..    24



[GRAPHIC] [TIFF OMITTED] 79555.001

[GRAPHIC] [TIFF OMITTED] 79555.002

[GRAPHIC] [TIFF OMITTED] 79555.003

[GRAPHIC] [TIFF OMITTED] 79555.004

[GRAPHIC] [TIFF OMITTED] 79555.005

[GRAPHIC] [TIFF OMITTED] 79555.006

[GRAPHIC] [TIFF OMITTED] 79555.007



                      COAST GUARD MISSION BALANCE

                              ----------                              


                       TUESDAY, FEBRUARY 26, 2013

                  House of Representatives,
                    Subcommittee on Coast Guard and
                           Maritime Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m. in 
Room 2165, Rayburn House Office Building, Hon. Duncan Hunter 
(Chairman of the subcommittee) presiding.
    Mr. Hunter. The subcommittee will come to order. The 
subcommittee is meeting this morning to review how the Coast 
Guard allocates its assets and personnel to carry out each of 
its 11 statutory missions, as well as the challenges the 
Service faces in performing its missions and measuring its 
performance.
    This is my first hearing as chairman of the subcommittee, 
and Congressman Garamendi's first hearing as the subcommittee's 
ranking member. And I look forward to working with him and with 
the Coast Guard and the 113th Congress. Very honored to have 
this subcommittee, worked really hard to get it. I would like 
to thank the staff, too, for all the work they have already put 
in, and just giving me information up to this point.
    Under section 2 of title 14 of--the Coast Guard is 
responsible for a wide range of missions, from search and 
rescue, icebreaking, and marine environmental protection, to 
port security and drug interdiction. The Coast Guard uses a 
strategic planning process which determines mission priorities 
based on risk, and helps guide the Service in allocating 
resources among its statutory missions.
    I know Admiral Neffenger is very familiar with this process 
from his prior job as director of strategic management and 
doctrine, and I look forward to hearing from him on how that 
process works.
    As the Nation's primary maritime response organization, the 
Coast Guard often must surge assets and personnel to respond to 
a hurricane, oil spill, or other national or international 
emergencies. In 2005, the Service surged hundreds of assets, 
including 40 percent of its helicopter fleet and over 5,000 
personnel to the gulf coast to respond to Hurricane Katrina, 
saving over 32,000 lives.
    In April 2010, the Service moved over 150 assets and 7,500 
personnel to the gulf coast to lead response efforts to the 
Deepwater Horizon oil spill. The Coast Guard is also tasked 
with preventing maritime accidents, keeping our borders secure, 
and protecting our ports and waterways.
    In fiscal year 2011, the Service conducted over 19,000 
safety, security, and environmental inspections of U.S.- and 
foreign-flagged vessels, and interdicted over 2,400 
undocumented migrants and 93 metric tons of illegal drugs. That 
is why this subcommittee wants to ensure the Service retains 
its core competencies and acquires the assets needed for its 
response missions and day-to-day prevention work.
    One of the best ways to gauge the Coast Guard's capability 
to carry out its missions is to review mission performance 
data. In 2011, the Service used 23 different performance 
measures to track its success in meeting its missions goals. 
The Service stated that it met or exceeded 14 of 23 of its 
performance measures.
    In December 2012 the DHS inspector general released its 
annual review of Coast Guard mission performance objectives for 
fiscal year 2011. The report indicated the Coast Guard's total 
number of mission resource hours, the number of flight hours 
for aircraft and underway hours for boats and cutters had 
fallen by 12 percent over the last 5 fiscal years. The 
inspector general largely attributed the reduction in patrol 
hours to the fact that the Coast Guard's fleets of aircraft and 
vessels are no longer reliable, having surpassed their service 
lives and become increasingly prone to failures.
    A Representative of southern California, I am particularly 
concerned about the Service's ability to secure our borders 
against illegal drugs and migrants, and maintain its defense 
readiness. As the new chairman of the subcommittee, I look 
forward to working closely with the Coast Guard and my 
colleagues to get new assets operating as quickly as possible, 
and to find other ways to improve readiness and enhance mission 
performance in a cost-effective manner.
    I thank Admiral Neffenger for appearing today and I look 
forward to his testimony. With that I yield to Ranking Member 
Garamendi.
    Mr. Garamendi. Mr. Chairman, thank you very much. 
Congratulations on the chairmanship of this committee, a very 
important one in my mind, and certainly for all of the Nation.
    I want to also--as fellow Californians, we both realize 
that very few Federal agencies are as important as the United 
States Coast Guard. We also recognize that our maritime economy 
contributes almost $649 billion annually to the U.S. gross 
domestic product, and more than 13 million jobs, and remains a 
key resource for the prosperity of all of the American economy, 
not least of which are the rice producers and farmers in my 
district that rely upon the exports. And the Coast Guard has a 
lot to do with that.
    In the congressional district that I represent we have the 
beginning of San Francisco Bay, and one of the most busy of all 
the service sectors for the Coast Guard's search and rescue. 
Sector San Francisco also maintains critical aids to navigation 
that link the ports and the communities: Sacramento, San 
Joaquin Ports, the Stockton Port, the Delta, and of course, the 
Bay, itself. This vital activity helps to ensure safe and 
reliable maritime transportation. And I do like Coast Guard 
Station Rio Vista, right on the Sacramento River. Also, we have 
the Port of Oakland, the Nation's fourth busiest container 
port, and the Concord Naval Weapons Station, one of five 
designated strategic sea ports in California.
    As we export to the world, I hope this committee will also 
look into ways the Coast Guard can increase its commitment to 
American manufacturing. The Coast Guard creates jobs by 
protecting our waterways and our ports. They can also create 
jobs by implementing a stronger Buy America policy, using our 
limited taxpayer dollars to make sure that we buy goods and 
equipment that the Coast Guard needs from companies that 
manufacture here in the United States.
    It is no understatement to say the Coast Guard is 
indispensable. It is hard to actually imagine the smooth 
functioning of the maritime transportation system without a 
ready and able Coast Guard. Yet, here we are, Mr. Chairman, 
virtually days away from seeing indiscriminate cuts imposed by 
the sequestration, cuts that are clearly going to reduce the 
Coast Guard's mission, perhaps by as much as 20 percent. And no 
one seems really able--at least here in Congress--to find a 
solution to this very serious problem.
    I want to commend you, Mr. Chairman, for scheduling this 
morning's hearing on how the Coast Guard can maintain a balance 
across its 11 statutory missions. All of those missions are 
important. Not one of them should be subject to the arbitrary 
cuts that are coming down. However, they will be in just 4 
days. Whether it is catastrophic oil spills, illegal narcotics, 
as you said, Mr. Chairman, the interdiction of illegal entry 
and human trafficking, all of those things are important. But 
all of those things are going to be impacted.
    So, what are we going to do? Well, we are going to hear 
from Admiral Neffenger. And then I hope we get about dealing 
with this sequestration in a balanced and sensible way, so that 
the Coast Guard can go about protecting our citizens and 
protecting our maritime economy. Thank you very much, Mr. 
Chairman.
    Mr. Hunter. Thank the ranking member. I look forward to 
working with you over the next term.
    Our witness today is Coast Guard VADM Peter Neffenger, 
Deputy Commandant for Operations. Admiral, you are recognized 
for your statement.

 TESTIMONY OF VICE ADMIRAL PETER NEFFENGER, DEPUTY COMMANDANT 
           FOR OPERATIONS, UNITED STATES COAST GUARD

    Admiral Neffenger. Thank you, Mr. Chairman. Good morning 
and good morning to you, Mr. Chairman and distinguished members 
of this subcommittee. I thank you for the opportunity to 
testify today on U.S. Coast Guard mission balance and 
allocation of operational resources. I have a written statement 
for the record, and will make brief opening comments.
    As you know, the primary mission of the United States Coast 
Guard is to ensure the safety, the security, and the 
stewardship of United States waters. Our oceans, our coasts, 
rivers, and great lakes are the lifeblood of the United States 
economy, with some 95 percent of all trade traveling by water. 
Our waters also provide a foundation for research, recreation, 
and advances in technology.
    The Coast Guard's service objective is to balance missions 
such that limited resources are applied to highest risks and 
threats. The models we use are adaptive, with success 
predicated upon our complementary suite of authorities, 
capabilities, competencies, and partnerships.
    We are at all times an arms service, a Federal law 
enforcement agency, and a member of the intelligence community. 
This is a unique construct in the Nation and in the world. It 
allows us to govern the maritime environment and to contend 
with a challenging array of maritime risks to people, cargo, 
conveyances, our ports, and our waters. Our adaptability 
ensures that we address existing risks, as well as those that 
evolve over time.
    In the Arctic, for example, there is a new ocean opening. 
Summer sea ice has diminished, and the region is becoming 
increasingly accessible to new and expanding activities. 
Resource extraction, cargo transhipment and adventure tourism 
are but three areas in which we are seeing increased activity. 
And these require maritime governance, and the Coast Guard has 
responsibility for this in U.S. waters.
    In the drug transit zones of the Caribbean and the eastern 
Pacific, we are attacking illicit networks with layered 
defenses of our own. It takes a network to defeat these 
networks, and we are working strategically and operationally 
with Federal, State, and international partners to address 
threats long before they reach our physical borders.
    The Coast Guard exercises its authorities through a core 
strategic framework: prevent and respond. We strive at all 
times to prevent bad things from happening: loss of life at 
sea, vessel casualties, smuggling of people and drugs, and the 
like.
    Our marine safety program, for example, establishes and 
enforces standards for construction, along with standards for 
safe and secure operation or commercial vessels and the ports 
in which they operate. This includes a credentialing of 
mariners. We seek to prevent casualties at sea, and ensure the 
security of ships operating in our waters through oversight, 
engagement, and investigation.
    However, we have to always be ready to respond when 
necessary. And, as we sit here, there are air crews, boat 
crews, strike teams, and others ready to respond to search and 
rescue cases, homeland security incidents, and other missions 
such as environmental response, all on a moment's notice.
    I would also like to emphasize the value that partnerships 
bring to this prevent-and-respond strategy. We leverage 
Federal, State, local, tribal, international, and other 
partnerships to improve our operational effectiveness through 
depth, reach, and capacity that others bring to our toolbox.
    During my time in command of the Great Lakes region, the 
operations there, we partnered very closely and regularly with 
Canada on search and rescue and other missions. Depending upon 
location and nature of distress, these operations often 
involved U.S. Coast Guard ships and helicopters, operating 
together with their Canadian counterparts. It takes a team 
approach to meet the missions that we have, and partnerships 
are critical to their success.
    Coast Guard sectors administer our authorities, 
capabilities, and partnerships on the frontlines in our ports, 
along our coasts, and in our inland waterways. As commander of 
Sector Los Angeles-Long Beach from 2003 to 2006, I applied this 
prevent-respond strategy every day to our missions. I focused 
my finite resources against my highest risks.
    With the support of the administration and the Congress, 
the Coast Guard has made important strides towards improving 
our capability. We've acquired new National Security Cutters, 
Response Boats-Medium, Fast Response Cutters, Ocean Sentry 
Maritime Patrol Aircraft, and the Rescue 21 communications 
distress system, along with system upgrades to existing assets. 
These acquisitions enhance the Coast Guard's ability to operate 
in offshore, coastal, and inland waters with improved speed, 
more capable sensors, and better coverage, all underpinned by 
greater reliability and safety.
    But our missions are conducted by Coast Guard men and women 
who are heroic and courageous in the face of sometimes 
unimaginable situations of extreme weather, unforgiving 
threats, and limited time to react. So I would like to close 
with a story about one of our people.
    During the early morning hours of December 2, 2012, in the 
waters off southern California, SCPO Terrell Horne was leading 
a small boarding party to investigate a vessel suspected of 
smuggling drugs. SCPO Horne and his crew had just launched from 
an 87-foot patrol boat. It was dark, and they didn't know what 
they might encounter as they approached.
    They saw a panga-type large, open boat with a number of 
high-horsepower outboards. They came alongside. The suspect 
vessel suddenly increased speed, maneuvered directly at our 
small boat and its boarding team, and rammed it. SCPO Horne saw 
what was happening, moved forward to pull one of his crew out 
of harm's way. He was thrown from the boat, injured severely, 
and did not survive. He leaves behind a wife and children, but 
will always be remembered as a hero in our ranks.
    Now, that case is personal for me. His small boat was 
deployed from the 87-foot patrol boat USCGC Halibut, which was 
under my command, while serving as sector commander in Los 
Angeles and Long Beach. I know firsthand that night operations 
are exceptionally challenging. With limited visibility, rolling 
seas, and complex threats, our crews must be confident, 
proficient, and agile. And we need to provide them with the 
best equipment we can. The risks they face are real, and they 
deserve our best efforts. So, as the Deputy Commandant for 
Operations, I think about that every day.
    I thank you for the opportunity to testify today. I thank 
you for your interest in the Coast Guard, and your continued 
support. And I look forward to your questions.
    Mr. Hunter. Thank you, Admiral, for your testimony. Before 
we get started asking questions here, I would like to recognize 
an honored guest, the chairman of the full committee, Mr. 
Shuster.
    Mr. Shuster. Well, thank you, Mr. Hunter, Chairman Hunter. 
I appreciate you recognizing me. I will be brief. Thank you and 
Congressman Garamendi for holding this important oversight 
hearing. That is one of the most important roles we have as 
Congress, is to make sure we have aggressive oversight.
    And I appreciate your being here today, Admiral, and your 
testimony. And I guess you are in a unique position, as being 
the former director of strategic management. You planned this, 
now you are operations, you are actually implementing it. So 
you get to grade yourself on how you are doing.
    But it is extremely important, what you are doing, tracing 
the history back to the Coast Guard, back to 1789 and that 
first--those lighthouses we built. And, in fact, the first 
earmark, the first congressionally directed funding was a 
lighthouse up in what is now Maine but was Massachusetts. So we 
would like to figure out how we can get back to Congress 
directing more of those funds to important projects.
    But again, what you do in preventing accidents, making sure 
the system works efficiently, is extremely important to the 
commerce of the United States. And we want to make sure that we 
are supportive of you, but we also want to make sure that the 
Coast Guard is doing the right thing when they are allocating 
resources and having a balanced mission out there. And since 9/
11 I know you have grown significantly, especially in your 
security that you provide at our ports, and then the waters of 
the United States.
    So again, I look forward to working with you, and I 
appreciate the fact that Chairman Hunter and the Ranking Member 
Garamendi are having this hearing today. So thank you very 
much. I yield back.
    Mr. Hunter. Thank the chairman. OK, so let's get started. 
We are going to recognize Members for questions, starting with 
myself. And to touch on what the chairman just said, over the 
last decade the Coast Guard, post 9/11, has greatly expanded 
its mission, mostly in the security arena. You have added 
additional responsibilities, because you have had to respond 
and be able to respond to emergent threats.
    So the question is, how has that changed you? And has it 
taken away from your other missions? Because your budget has 
gone up as well, but your needs in ships and in 
recapitalization has also gone up as well. So your missions 
have gone up, your budget has gone up. But has the budget been 
commensurate with the amount of stuff you have had to do, and 
that you have had piled on you, as well as the recapitalization 
of your ship fleet?
    Admiral Neffenger. Thank you, Mr. Chairman. I think that 
you are right, that our mission set has expanded considerably 
over the past decade. And--but so has the, I think, the ability 
of the Coast Guard to both understand how to approach that 
mission set and to structure itself accordingly for that.
    I mentioned that we have a primary mission to ensure the 
safety, the security, and the stewardship of U.S. waters. And 
by stewardship, I mean both the environmental piece as well as 
the management of the waters, the maritime transportation 
system itself, because that is under our responsibility, as 
well. And in looking at that overarching mission, and all of 
those submissions that we have, search and rescue, maritime law 
enforcement, drug interdiction and the like, all of that plays 
into that overarching mission.
    So I think my point in that is it allows us to look 
holistically at our missions. I know that there is a 
designation in statute that determines Homeland versus non-
Homeland missions. But, from our perspective, all of our 
missions are tied to that overarching fundamental purpose for 
safety, security, and stewardship.
    To do that, we have had to do some reorganization. As you 
know, prior to 9/11 we had a different organizational construct 
for our shore forces, for example. We had marine safety 
offices, which were fundamentally responsible for commercial 
vessel oversight, oversight of the activities of facilities 
that receive those vessels. We had what we called group 
offices, which were fundamentally responsible for operating our 
small boats and our patrol boats in pursuit of law 
enforcement--near-coastal law enforcement missions, as well as 
search-and-rescue missions. And then we had our--of course, our 
offshore patrol forces in the form of our large cutters and our 
aircraft.
    Since the 9/11, since the formation of the Department of 
Homeland Security, we have reorganized those forces into 
sectors. And our sector commands now really incorporate all of 
our authorities under a single operational commander. So, as 
sector commander for the Ports of Los Angeles--actually, for 
southern California--my area of responsibility was for the 
Monterey County line in the north down to the San Diego County 
line, so about 300 miles of coast, and it had a commensurate 
offshore piece to it, as well. My task every day was to look 
across this broad suite of authorities that we have that really 
give us the ability to address any threat, risk, or hazard in 
the maritime environment, and apply my resources effectively, 
whether that was a search and rescue mission or an oil spill or 
a potential terrorist attack.
    So, I think that the way I would--so the general answer to 
that is that we have changed dramatically. We have had to--we 
have increased the number of resources we apply to it. I will 
tell you, as a former operational commander, you can never have 
enough resources to do the things you do. We have a very large 
operating area, and we will likely always have limited 
resources. But we are also well aware of the fiscal constraints 
that we all face.
    Mr. Hunter. So let me get more specific, then. Because you 
have heard the saying--I think it was Sun Tzu--if you plan for 
everything, then you plan for nothing. Right? So you can't 
prioritize everything the same. So if you have 11 statutory 
missions, with the entrance of Homeland Security 10 years ago 
or 12 years now as being one of the primary missions of the 
Coast Guard, and your integral role in Homeland Security, what 
have you had to give up?
    Admiral Neffenger. I guess I would say it is not so much 
that we have given up missions, but we have had to prioritize 
the work that we do. Clearly, search and rescue will always be 
a top priority for us. Someone is in distress on the water, we 
will do everything we can to find that individual or 
individuals and rescue them.
    Security of this Nation is a top priority, always will be, 
and we need to do whatever we can to ensure that our harbors, 
our ports, our waterways are secure, that we understand the 
potential threats that might face us, and so forth, and that we 
construct appropriate strategies to combat those threats and to 
reduce risk in our ports.
    The--but I will tell you that there are things that 
sometimes have to be changed with respect to how we operate. 
The good news is that we can leverage a lot of partnerships to 
help us. So, for example, in our oversight responsibilities for 
commercial vessel inspection and commercial vessel 
certification. We have worked with classification societies 
such as ABS and others to conduct some of these inspections and 
oversight responsibilities on our behalf, while still 
conducting the periodic oversight of those agencies that do 
that for us. We have also looked to leverage capability in our 
ports and waterways that local agencies bring to the table for 
us, and they can conduct operations and patrols for us, as 
well.
    What we have done strategically is to look at the range of 
missions that we face, the relative priorities of those 
missions with respect to safety of life, security of this 
Nation, and then we have looked to see who else out there can 
assist us in operating. So we are much better at interoperating 
with others now than we ever were before. We have much more 
established partnerships. We work together in much more 
seamless ways in our waters.
    Mr. Hunter. Let me ask you this, Admiral, then I am going 
to pass it on to Mr. Garamendi. You talked about search and 
rescue being your number one priority, as it is, right?
    Admiral Neffenger. Yes, sir.
    Mr. Hunter. Life and vessel out there on the water. Coast 
Guard reported that in fiscal year 2011 it did not meet its two 
search-and-rescue mission performance goals. The Coast Guard 
only saved 77 percent of individuals in imminent danger, and 
not the goal of 100 percent. Obviously, it is 100 percent. And 
the Service was only on the scene of a distress call within 2 
hours 93 percent of the time, instead of the goal of 100 
percent.
    So, with this in mind, and that being your number one 
priority, are your performance goals that you currently use 
realistic? And do they accurately reflect mission performance?
    Admiral Neffenger. Well, those--as you know, sir, those 
performance goals are really designed to measure the outcome, 
or the ability of us to make a difference to the American 
public, not just the measure of our activity.
    The goal we set for rescuing people in distress is 
admittedly a large goal. We would like to rescue every single 
person in distress on the water. That is where the 100 percent 
come from. I think it would be unrealistic and unfair to the 
American public to suggest that we were striving for anything 
else. But we can't rescue everyone in distress. There are times 
when people will die. There are times when people will be lost 
at sea and we won't be able to find them. It doesn't mean that 
we look to save every single one of them. We don't look to see 
whether there is----
    Mr. Hunter. Admiral, I understand that. And if I could, a 
77 is a C+. So my question isn't that--not that the Coast Guard 
is not trying to do its job. Is the--are your metrics realistic 
metrics? Because if you are getting a C+ at your number one 
priority and the thing that you put most of your energy and 
resources into, you are still passing. But are the metrics 
correct? Because you could probably measure your performance in 
other ways that would reflect differently and probably up your 
score a little bit, I would guess.
    Admiral Neffenger. Yes, sir. And there was a time when we 
set a lower standard. But let me explain. Maybe it is useful to 
take a moment to talk about how these metrics are used.
    There is really two ways in which you can measure 
performance. You can look at individual cases to determine 
did--for example, let's say we have a rescue at sea and it 
wasn't successful. The first thing you ask, is there something 
that the Coast Guard did that made it not successful? So there 
is an individual outcome measure. Did we do the things that we 
should have done? Did we act in accordance with our--with known 
tactics, techniques, and procedures? And did we do so in a way 
that resulted in a successful prosecution of the case? That is 
an important measure, and those are measures that we take. 
Those aren't captured here.
    This measure is really designed to ask, are our strategies 
with respect to--our operational strategies with respect to how 
we approach our missions, are they adequate for the missions 
that we are conducting? So when we say that we only met 70 
percent of our goal, 77 percent of our goal to save lives in 
distress, it doesn't necessarily mean that we failed at saving 
lives in distress. As I said, sometimes there is just no way 
you are going to save somebody. By the time you are notified, 
they are already gone. Or they are lost at sea in a way that 
makes it impossible to find them.
    But what it does tell someone like me to do is to look at 
whether or not there are systems we can put in place that would 
have obviated the need for that person to get lost in the first 
place. Rescue 21 is such a system. That system has allowed us 
to know more about where people are than ever before. Automatic 
identification system.
    So I don't know if that helps to explain it, but the 77 
percent number is really a target for me, and a series of 
questions that I need to ask about the overarching strategy. 
And it doesn't really tell me whether our people are performing 
adequately. That I measure on a case-by-case basis. It tells me 
whether I am performing adequately in providing my operational 
forces with the strategies and the policies and/or the 
prevention activities in advance of a case that they might 
need.
    Mr. Hunter. Thank you, Admiral. I have taken enough time. 
Mr. Garamendi is recognized.
    Mr. Garamendi. Thank you, Mr. Chairman. Well, let's see. 
March 1st is coming, and sequestration along with it. It is my 
understanding that the Coast Guard is going to be significantly 
affected by sequestration. Some $340 million will be reduced 
from your 2013 budget. That is below the 2012 budget level. 
This is about a 5-percent cut, as I understand it, but it does 
result, presumably, in a 21-percent reduction in operations, 
except for training and for readiness for search and rescue.
    In light of these pending cuts, what are your plans to be 
able to preserve the ability of the Coast Guard to meet the 
highest priority mission requirements? And also, considering 
the cascading impact that these reductions will have on the 
Coast Guard's readiness and capabilities, how will the Coast 
Guard revise its performance measures to reflect the reality of 
sequestration?
    Admiral Neffenger. Well, sequestration--any time you take a 
cut of any magnitude this far into the fiscal year, it is 
challenging. As you know, most of our expenses are in our 
people and in the operating hours, the cost it is to operate 
our vessels and aircraft. So there are some challenges 
associated with absorbing that level of reduction. I will--and 
I know that the--our Secretary has recently testified to the 
Senate Appropriations Committee on the overarching impacts of 
those cuts and some of the high-level effects that that will 
have.
    We are still in the process of determining what some of the 
very detailed cuts are, should the sequestration order be 
issued this week. But our goal is to ensure that we have our 
frontline forces at all times ready to respond to emergency, 
whether that is a search-and-rescue case, or any other 
contingency that may happen, a natural or a man-made disaster. 
And, of course, any terrorist events.
    We are also ensuring that we have frontline forces in place 
in those areas of risks that we know are of ongoing concern, 
whether that is the transit zones in the Caribbean and the 
eastern Pacific, or migrant interdiction.
    The--with respect to our performance targets, we don't 
intend to reduce our performance targets, we simply intend to 
report whether or not--you know, what the impact this may or 
may not have had upon our ability to meet those targets. So I 
think that that will be a more realistic way--certainly more 
useful for me to determine, because our performance targets are 
set to some extent--well, they are set with respect to the 
risks and the threats, keeping in mind the available assets to 
apply to those.
    Mr. Garamendi. Well, it then appears that there--is there 
going to be a 20-percent--21-percent reduction in the 
operations of the cutters, other boats, as well as the 
aircraft?
    Admiral Neffenger. There will be a reduction to our 
operations budget. I know that the Secretary testified that it 
could be as much as 25 percent. What we are trying to do is 
determine whether a sequestration order would allow us to alter 
somewhat the types of cuts that we make.
    I will tell you that we are--again, we are committed to--I 
am committed to ensuring that we have frontline resources at 
all times ready to respond. But there will be an impact to our 
ability to operate with a reduction.
    Mr. Garamendi. Will those impacts be in the search-and-
rescue area, or in the prevention area?
    Admiral Neffenger. We will not reduce our ability to 
respond to search-and-rescue cases or to contingencies and 
emergencies. We at all times have to be ready to meet the 
Nation's demand in that respect.
    We will look across our other activities to determine 
whether we can postpone, alter, or otherwise delay the other 
types of activities we will do. We will look at things like 
maintenance, deferring maintenance on our vessels, and doing 
other temporary measures to extend our budget through the rest 
of the fiscal year.
    Mr. Garamendi. Thank you very much.
    Mr. Hunter. Thank the ranking member. And Mr. LoBiondo is 
now recognized.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Admiral, thank you. A little bit different to be sitting 
here after a number of years, but it feels good. Chairman 
Hunter, congratulations.
    Admiral, I would like to consider myself one of the biggest 
cheerleaders of the Coast Guard and partner with the Coast 
Guard. But also when questions come up, sometimes tough 
questions--and in this budget environment, and that is--we are 
talking about priorities and a lot of things of how we should 
handle it.
    I have been made aware that over the last couple of years 
the Coast Guard has been, on a fairly regular basis, sending 
Government employees to Paris, France, to attend weeklong 
meetings involving representatives from five small countries to 
discuss the regulation of marine pilotage.
    I also understand that the Coast Guard has been a driving 
force in organizing these gatherings, and is largely 
responsible for ensuring these small gatherings continue to be 
held regularly.
    I would hope that you would tell me my information is 
wrong, and this is not the case. But if it is, I am really 
confused as to why the Coast Guard is so invested in this issue 
when the law is clear. With the limited exception of the Great 
Lakes, pilotage in the United States is regulated by State and 
local authorities. And I just can't understand why the Coast 
Guard is spending these vitally scarce funds to regularly send 
Government employees to Paris for a week at a time to meet with 
a handful of small countries on an issue that is not the 
primary responsibility of the Coast Guard. Can you help me out 
here?
    Admiral Neffenger. Yes, sir. I think I can, and I think I 
can put you in a more comfortable place, with respect to the 
issue you bring up.
    I will start by saying we have sent one individual to 
France for a 3\1/2\-day meeting once each in the past year. So 
it has been one individual from the United States Coast Guard. 
It has been out of our Great Lakes pilotage authority office. 
As you know, the Coast Guard is a pilotage authority itself. We 
regulate pilotage on the Great Lakes. We set their work hours, 
we set the rates, and we do so in concert with Canada, because 
it is a jointly used waterway.
    We have also been subject to a number of recommendations 
over the years from the National Transportation Safety Board 
with respect to pilotage, both our own regulation of pilotage 
as well as our oversight of pilotage authorities in the form of 
our licensing and so forth of Federal pilots. And some of those 
regulations have suggested that there is a need for greater 
information sharing among pilotage authorities for best 
practice--learning best practices.
    So, the purpose of attending this conference--and it is not 
one that the Coast Guard organizes, although we participate in 
it--the purpose of attending it is to--really, to share best 
practices with other pilotage authorities. It is an 
international body. It is the only body of its type in the 
world in which you can have those kinds of interactions. It is 
very similar to the kinds of work we do through the 
International Maritime Organization, the International 
Association of Lighthouse Authorities, and the like.
    So, I would put it in the category of understanding best 
practices, understanding what standards exist elsewhere in the 
world. And to your point on overseas travel, we are absolutely 
aware of the responsibility we have to husband our taxpayer 
dollars carefully. As I said, it is one individual that has 
attended this.
    It is likely not going to happen this year, particularly if 
we are under a sequestration order, because we have cut back on 
all of our travel. But I believe that it is a reasonable use of 
that time, and we get good information out of that. And it 
helps us to be better at our pilotage on the Great Lakes. So I 
hope that is responsive to your question, sir.
    Mr. LoBiondo. Well, it helps.
    But I have to tell you that I am concerned that with such 
limited Coast Guard oversight, shall we say, of pilots just to 
being the Great Lakes, and you being stretched so thin in so 
many areas, that is just something that I can't connect the 
dots with in my head. I mean we all want to get best practices, 
but it is not like you are dealing with the whole United States 
of America. We are only dealing with the Great Lakes here. And 
I know that we want to be the best that we can be, but I 
don't--to my recollection, there haven't been any real 
problems. So I would hope you would take a close look at this.
    Admiral Neffenger. Yes, sir. We will.
    Mr. LoBiondo. Thank you. Yield back, Mr. Chairman.
    Mr. Hunter. Thank the former chairman of this committee. 
And I would like to recognize Ms. Hahn for 5 minutes.
    Ms. Hahn. Thank you. And thank you, Chairman Hunter, 
Ranking Member Garamendi, for convening this hearing focusing 
on our Coast Guard mission balance and capabilities. I really 
want to thank my friend, VADM Peter Neffenger, who has been my 
friend since he was captain of the port in Los Angeles during 
the time that I was on the city council in Los Angeles. Thanks 
for being here today and for providing your testimony.
    Statutory mission of the Coast Guard play a critical role 
in protecting our Nation. From drug interdiction to defense 
readiness to port security, Coast Guard is our best asset to 
counter the many threats that we face on the domestic and 
international waters. Same time, our Coast Guard is facing 
emerging threats that require modern and innovative strategies 
in order to remain effective.
    For instance, as you talked about, the rising use of panga 
boats not only risk pouring tons of illegal drugs and weapons 
into our country, but also threaten the safety of our Coast 
Guardsmen, as you talked about. The tragic loss of SCPO Horne, 
I attended his memorial service and was very moved and very 
saddened at the family that he leaves behind. I think the only 
silver lining to that tragic event was maybe for a brief moment 
Americans began to understand what the Coast Guard actually 
does, and the risk that they take personally every time they go 
out to protect our waters.
    You know, since 9/11 we have focused in this country on our 
Nation's ports of entry in beefing up the security. Most of the 
attention, in my opinion, has gone to focusing on our airports 
and less on our Nation's seaports. I represent the largest port 
in the country, the Port of Los Angeles. And I still think we 
have vulnerable entryways into this country through our ports.
    Without giving away any secrets to those who would do us 
harm, are you able to tell this subcommittee what you think is 
some of our biggest vulnerabilities that currently exist in our 
ports and maritime security? And should Congress be focusing 
more on these gaps in security?
    Admiral Neffenger. Thank you, Congresswoman. And thank you 
for your thoughts about SCPO Horne. I know it meant a lot to 
his family to have you out there.
    With respect to our ports, as you know, much of that, with 
respect to vulnerabilities, is in the classified realm. And I 
am always happy to come back to the committee and brief you in 
a classified setting as to the specifics with respect to that. 
But let me speak in very high levels.
    The very thing that makes our ports so powerful in their--
in the economic engine that they provide to this country is 
their openness. And that openness is the very thing that argues 
against security and safety. So it is--there is a balance 
there, with respect to our ports. You can't lock them down in 
the same way that you can lock down an airport and expect to 
move the kinds of volumes that we move through there.
    During the time that I was in Los Angeles and Long Beach, I 
think there was a combined total of about 13,000 actual 
containers a day coming into the port, not to mention those 
that were being moved around, and the like. That is a lot of 
containers. And if you tried to lock that all down, it would be 
challenging.
    So, how do you determine, you know, what is the--how to 
protect a port? Well, it starts by looking--getting--really, 
gathering experts together to think about the ways in which a 
port has to operate. That may sound like a fairly 
straightforward question, but it is a challenging question to 
answer, if you think about what makes a port efficient, and 
then you look at the ways in which that efficiency can be 
damaged or is vulnerable.
    And so, we spent a fair amount of time--this is a 
continuous process--where we look at the vulnerabilities in a 
port. And vulnerabilities can be to any type of thing that you 
might think about, whether it is a small boat type attack or 
some other type of incident. And again, I am talking in the 
intentional category here of somebody trying to do damage. And 
you look at how those vulnerabilities rank in terms of the 
consequence that there might be to the port if something were 
to happen.
    So, some things could happen that would have very little 
impact on the operation of the port. There may be a 
psychological effect, but it wouldn't put the port out of 
business. Some things could happen that could put the port out 
of business for some extended period of time. So that, by 
definition, starts to force a rank order of those 
vulnerabilities, and it creates some priorities for us.
    And then we try to determine what the potential threats 
are, you know, who--what might an adversary try to do? And so, 
ultimately you come up with an equation that leads to a risk 
that you might have in the port. And that equation starts with: 
What do I think the threat might be? What are the 
vulnerabilities that those threats might try to exploit? And 
what is the consequence of that happening?
    Now, the threat is the independent variable. We don't 
really know what might happen. And we know that there is 
intent, and we have seen examples of what people can do around 
the world, but we don't necessarily have any specific threat 
information. So we game that out. And we game that out against 
our vulnerabilities, and we game it out against the things that 
we do to try to protect the ports. And in doing we determine to 
go back to Mr.--Chairman Hunter's question about our measures, 
we set measures that try--that use our existing tactics and 
techniques and procedures and strategies, and then we take 
those scenarios and we game them against those. And sometimes 
we find in our scenarios that we fail, and then we have to 
change our tactics and techniques.
    So, what I would say is that we know a lot more about the 
security of our ports, about the vulnerability of our ports, 
about how those vulnerabilities can lead to unpleasant and 
difficult consequences for us to deal with. We know less about 
actual threats, a lot about intent. And we can game out a 
number of potential scenarios.
    And we have done a great deal to coordinate amongst all the 
various agencies responsible for security and safety in our 
ports.
    I think that is a high-level view of it. What I would be 
happy to do is do some more detailed briefings in a closed 
setting for some specifics that we have discovered in 
particular ports, as well.
    Ms. Hahn. Thank you. I know my time is up but, Chairman 
Hunter, I would love it if you would consider reconvening this 
in a classified setting so we could hear more specifics about 
the threats to our Nation's ports. I think this subcommittee 
would be the perfect place to hear those facts.
    Mr. Hunter. Sounds like a great recommendation to me. We 
will take it up.
    Mr. Southerland is recognized.
    Mr. Southerland. Thank you, Mr. Chairman. And, Admiral, 
thank you for appearing before us today. I am new to the 
committee, so I may ask you some questions that may seem pretty 
basic to you, but just to give me some education.
    I understand that the topic of sequestration seems to be on 
everybody's lips, and we are hearing--you know, I have heard 
you mention today that cuts up to 20 percent, perhaps, give or 
take. Of those--of the percentage of those cuts, I mean, how 
much of those cuts will be done at the administrative level, as 
opposed to, you know, right there where the operations are 
taking place? How much upstream in offices will those cuts be 
administered to?
    Admiral Neffenger. Well, our plan is to move as much 
upstream as possible. The last place that I will go for cuts is 
our frontline operations. And so I think I already mentioned in 
response to Mr. LoBiondo's question that we are--we will cut 
our nonoperational travel almost completely. There is very 
little other travel that we do.
    There are certain things that you still have to do, but we 
are cutting administrative overhead to the extent possible, we 
are reducing nonessential operational activities, and that 
would--when I say nonessential, it doesn't mean that you don't 
have to do them eventually----
    Mr. Southerland. I get it.
    Admiral Neffenger [continuing]. But nonessential from the 
standpoint of deferring maintenance, deferring activities that 
would inspect vessels, deferring other types of activities.
    Mr. Southerland. So it sounds like you are very unique, 
compared to some of the rhetoric we have been hearing as far as 
food inspectors and the like, because that is the frontline. It 
seems to me that if you equate your philosophy, it is a stark 
contrast to some of the things that we are hearing coming from 
other departments.
    So, if you, in fact, implement the cuts in a commonsense 
approach as you just outlined, first of all, I want to commend 
you. It is refreshing. Because we are hearing just the opposite 
of that in other departments if we go into sequestration.
    And I want to say this as a small business owner and I had 
not--you and I just met. You know, I had not had a background 
in political service or elected office before. Our family had 
small businesses. I just want everyone to know that across 
America today small businesses take 15 to 20 percent cuts every 
year as standard operating procedure over the last 4 to 5 
years. And so I have to say that we find a way to make it 
happen. We don't have any choice. And so, you know, I know 
these are difficult to do.
    I am pleased by your presentation and the way that you 
seem--the reasonable way that you seem to go after things. But 
I think to make cuts farther away is important.
    I wanted to ask you another question. The Service reports 
that funding dictated by--or, excuse me, dedicated by mission 
on an annual basis, and the DHS inspector general annually 
reviews the number of patrol and flight hours dedicated to each 
mission. The IG reported that the total number of patrol and 
flight hours have decreased by nearly 12 percent over the last 
5 fiscal years. What are the main reasons for this? And what is 
the Service doing to reverse this trend?
    Admiral Neffenger. The primary reason for that reduction is 
the age of our assets and the increasing unreliability of those 
assets. So as our cutters and aircraft have aged, they suffer 
increasing casualties. Clearly these are not expected. And 
those casualties tend to be more and more consequential in 
their nature.
    So, instead of just the--a small part failing, now you have 
an entire system failing on a vessel. With the average age of 
our cutter fleet--some are above--some are between 40 and 50 
years--it is not possible to keep them running at the same 
efficiency that they were once before. And, as I mentioned 
before, when you have to defer maintenance in order to meet 
certain fiscal targets, then that only compounds the problem. 
So, that is the primary reason.
    What have we done to address that? Well, we have been 
working for some time now with the assistance of the Congress 
and the support of the administration to recapitalize the major 
assets of the Coast Guard: our cutters, our aircraft, our small 
boats, and the like. I will tell you that we are thankful for 
the amount of recapitalization that we have had so far. And we 
are bringing on board quite a new--a number of new assets from 
our small boat fleet, all the way up into our major cutter 
fleet.
    We recognize the challenges of doing this in constrained 
fiscal environments, but we know that if we don't recapitalize, 
we will continue to have more and more of these casualties, and 
continue to fail to meet the operational hour targets that we 
have.
    Mr. Southerland. Admiral, thank you. I see my time has 
expired. And I just appreciate your service and that of the 
Coast Guard, especially in my area, living on the Gulf of 
Mexico. I appreciate it, and I yield back.
    Mr. Hunter. Thank the gentleman. Ms. Frankel is recognized.
    Ms. Frankel. Thank you, Mr. Chairman, for this opportunity. 
And thank you, Vice Admiral, for your service and your 
colleagues. Just to let you know, my father was in the Coast 
Guard. And I still actually have one of his uniforms hanging at 
home.
    So, I didn't have the exact--I don't want to withdraw a 
compliment from you--I didn't have the exact interpretation of 
your testimony to mean that the sequestration would not hinder 
your operations. But thank you for your efficiencies.
    I represent an area that has two ports, and--which is--and 
they are huge economic drivers. I represent part of south 
Florida. And I would like to know, in your opinion, whether the 
sequestration will--or how it would impact our ports.
    Admiral Neffenger. Well, again, we are well aware of the 
vulnerability of our ports. We are also well aware of the need 
to keep them in operation. Fortunately, we have a lot of 
partners in ports these days. We work very closely with them. 
Everyone is constrained these days, and that is true, and we 
understand that other Federal partners, as well as State 
partners, are suffering from some of the same fiscal 
constraints that we do, as well.
    But the upside is that over the past 10 years we have put a 
lot of systems in place, a lot of understanding in place, to 
allow us, in a limited fiscal environment, when you have to 
ultimately reduce some of your nonemergency operational 
capabilities, it lets us know where to focus the remaining 
capabilities that we have to most effect.
    There is always going to be concern when you reduce 
operational budgets this far into a fiscal year. And it poses 
challenges with respect to how you then allocate the hours that 
you can afford to operate. But our goal is to make sure we 
allocate those to our most pressing risks and concerns, and 
that includes our ports, Congresswoman.
    Ms. Frankel. Thank you, Mr. Chair.
    Mr. Hunter. There are no more questions on our side, so we 
will go to Mr. Cummings.
    Mr. Cummings. Thank you very much. It is good to see you 
again.
    You know, I was listening to the questions of the gentleman 
at the end. And I want to go back. You know, I don't--I am 
trying not to get caught up in this sequester thing, but it is 
a little bit more major than I think he described it.
    Having been a chairman of this committee, I know that we 
have already had deferred maintenance. Am I right?
    Admiral Neffenger. Yes, sir, you are.
    Mr. Cummings. And how many vessels--I remember when we had 
the Haiti earthquake and we were trying to get to Haiti, and we 
had vessels breaking down. Can you describe that to the 
gentleman?
    Admiral Neffenger. We did have a number of casualties on 
the vessels that we deployed to the Haiti earthquake response. 
Yes, sir. And it put two of those vessels out of commission 
for----
    Mr. Cummings. Put two vessels--out of about how many?
    Admiral Neffenger. For a period of time. Yes, sir.
    Mr. Cummings. Out of how many?
    Admiral Neffenger. Out of--I don't have the--I don't recall 
the exact number----
    Mr. Cummings. Just make a reasonable guess.
    Admiral Neffenger. We had roughly--I think we had three 
vessels that immediately responded, and two of those suffered 
engineering casualties during that response.
    Mr. Cummings. And so we have been deferring maintenance 
quite a while, haven't we?
    Admiral Neffenger. Yes, sir. We have deferred maintenance.
    Mr. Cummings. And with regard to Deepwater, how are we 
doing with Deepwater?
    Admiral Neffenger. The acquisition program?
    Mr. Cummings. Acquisition program.
    Admiral Neffenger. Actually, I think that we have really 
done quite well in the last few years. As you know, that was 
originally a program that was run by a lead systems integrator, 
not the Coast Guard. Since 2007 we have re-assumed the lead on 
that acquisition program. We no longer call it the Deepwater 
acquisition program. It is really just an acquisition program 
to replace our major capital assets. And----
    Mr. Cummings. So--I talk about Deepwater all the time in 
speeches. So I guess when I tell people to go to Google, they 
won't get an update on Deepwater, huh? What do you call it?
    Admiral Neffenger. What they will see is they will probably 
get a link to our acquisition programs now, across the board.
    Mr. Cummings. No, I am very proud of the work that we all 
did, this committee did, working with the Coast Guard to make 
that program more efficient and effective.
    As you well know, nearly 10 years ago the Coast Guard was 
required to bring towing vessels under inspection by the Coast 
Guard and Maritime Transportation Act of 2004. The Coast Guard 
issued a notice of proposed rulemaking in 2011, but has not yet 
issued a final rule. I have asked a number of witnesses in many 
different hearings when a final rule would be issued, and I 
will continue my effort to obtain today, by which towing 
vessels will begin to be inspected, by asking you the same 
question. When do you think the final rule will be issued? And 
will towing vessels finally come under inspection?
    And I want to incorporate in my question does--I mean I--
one of the things that we have heard in the past is there is a 
backlog, and sometimes there were personnel problems. Is it 
reasonable to assume that under sequestration that this--it 
will be even put further on the back burner? If it is still on 
the back burner. It may not be there. But we can't seem to get 
a final rule, and I am just wondering.
    Admiral Neffenger. No, we will not put it on the back 
burner. The good news is that the--over the past few years the 
Congress has been very generous in providing new people for our 
marine safety oversight program, in particular the regulatory 
component of that. As you know, that is a very labor-intensive 
operation, requires a fair amount of analysis and review in 
order to meet the various requirements that exist before you 
put potential new regulations on the street that may--that 
affect an entire industry.
    So, we don't intend to do that. That--and it doesn't suffer 
from a backlog. That rulemaking, as you know, sir, is one that 
involves an awful lot of details and affects a large industry 
that has never been inspected before. We have been working very 
closely with the American Waterways Operators, in particular--
that is a representative of that towing vessel industry--as 
well as individual owners and operators to ensure that we get 
the right mix of inspection, oversight, and applicability. That 
makes that a complicated process, by definition.
    So, I recognize your--and appreciate your concern with 
respect to the timing----
    Mr. Cummings. Let me ask you this before my time runs out. 
If--assuming we get the rule, say, within the next year or so, 
will we have the inspectors, the trained marine inspectors, to 
inspect? As you probably know, in the past we have had a 
problem with people who are even qualified to inspect. And I 
just wondered. Do you--how--what do you foresee for that?
    Admiral Neffenger. Yes, sir. As you know, as a result of 
your oversight, the oversight of this committee and the 
assistance of the appropriations committees, we have been able 
to significantly increase the number of inspectors and 
inspection-related personnel in the Coast Guard. So we thank 
you for that. That has been--and that is done under what we 
call our Marine Safety Enhancement Plan, which I think you are 
familiar with, sir.
    And so, over the past number of years we have added a 
significant number of new--over 500 new individuals to the 
marine safety program in that inspections/regulatory world. 
Some of those individuals are towing vessel inspectors. Not all 
of those people are yet on board, for obvious reasons. We don't 
have all those regulations in place yet, and so you want to 
make sure that you cycle them in. But we have created a towing 
vessel center of expertise, we have put people into that towing 
vessel that have expertise. And we developed a plan for going 
from apprentice to master in the inspection trade.
    So I think we are on a good stead. We are concerned about 
potential, you know, budget impacts in the near future. We 
don't intend to go after any of those new billets that we have 
coming on board, and we are doing our best to continue to meet 
the requirements----
    Mr. Cummings. I see I am out of time. But how are we doing 
with diversity? You know, we made tremendous strides with 
regard to diversity in the Academy. How are we doing there?
    [The Coast Guard submitted the following information for 
the record regarding diversity at the U.S. Coast Guard 
Academy:]
[GRAPHIC] [TIFF OMITTED] 79555.008

    Mr. Hunter. The gentleman is out of time. If you wouldn't 
mind taking this for the record----
    Mr. Cummings. Yes, but with your permission I just had one 
question.
    Mr. Hunter. If Mr. Larsen would like to yield to you, he is 
welcome to. I would like to recognize Mr. Larsen for 5 minutes.
    Mr. Larsen. Admiral, thanks for coming this morning, and a 
couple of questions. We put together the bill last year and had 
a lot of information there on capital building, acquisition, 
and procurement. Two things in particular I was working on I 
want to just ask some questions about.
    As you know, one of the Coast Guard's missions is to 
provide icebreaking services, and including in the Arctic. And 
so, I wonder if the Coast Guard--can you answer if the Coast 
Guard has looked at the impact of these across-the-board 
spending cuts on the timeline for the Coast Guard to design and 
build new icebreakers that are needed in the Arctic?
    Admiral Neffenger. We have. We don't--as you know, the 
President's budget, the fiscal year 2013 budget, included $8 
million for survey and design for a new icebreaker. And 
although that budget has not yet been agreed to, what we have 
done is move forward with preliminary survey and design work. 
This is work that we can do that doesn't require an 
appropriated budget to do. This is, you know, getting together 
with those people that we know have requirements in the Arctic 
and determining what initial requirements would be.
    Assuming that the budget request is funded as requested, I 
don't see it affecting our ability to move forward with a 
procurement--ultimate procurement of a new icebreaker, sir.
    Mr. Larsen. All right. Well, section 222 of the act that we 
passed requires the Coast Guard as well to complete a business 
case analysis of the cost of reactivating the Polar Sea 
icebreaker and options to maintain her capabilities. Can you 
update the committee on how the Coast Guard is progressing with 
that report?
    Admiral Neffenger. I know that that report is underway. I 
don't have the exact date for when that is due, sir. I can--I 
will get that for you, what the projected date is. But I know 
that we are conducting that business case analysis now, to 
determine what the ultimate disposition should be for the----
    Mr. Larsen. The sooner that you can at least get back to 
the committee----
    Admiral Neffenger. Yes, sir.
    Mr. Larsen [continuing]. With an approximate date, that 
would be fine.
    Admiral Neffenger. Yes, sir.
    [The Coast Guard submitted the following information for 
the record:]

        The CGC Polar Sea Business Case Analysis is underway 
        and it is anticipated that the final report will be 
        submitted to the committee by September 2013, in 
        accordance with the 2012 Coast Guard and Maritime 
        Transportation Act, Public Law 112-213.

    Mr. Larsen. If you could. Then on Response Boat-Medium you 
mentioned in your testimony the importance of RBMs as one of 
the new assets. Section 220 of the Act requires the Coast Guard 
to maintain a program of record of 180 boats, unless the 
Commandant submits to this committee documentation justifying a 
smaller acquisition level.
    Does the Coast Guard plan on completing the program of 
record of 180 for RBM?
    Admiral Neffenger. As you know, that is an exceptionally 
capable vessel. And as we field that vessel and put it into 
operation, we are discovering that it has even greater 
capability than we had planned to receive. So that may allow us 
to change the program of record.
    I will determine where we are with respect to the report to 
the committee, but I think that as we look at that, our general 
belief is that we may not have to go to the full 180-boat buy 
in order to meet our operational requirements. That would 
provide us with some flexibility, with respect to our other 
acquisitions. But allow me to get you a specific answer.
    Mr. Larsen. Well, please just do that, because the 2012 Act 
said that you will maintain the program of record of 180. That 
is what we said.
    Admiral Neffenger. Yes, sir. And I know we owe you a 
discussion before we change that.
    [The Coast Guard submitted the following information for 
the record:]

        The Coast Guard's FY2013 President's Budget states 
        ``...in FY2013 the Coast Guard will reduce the scope of 
        the RB-M acquisition, leveraging FY2012 funding to 
        procure 40 RB-Ms over FY2012-2013 and close out the 
        project at a total of 166 boats'' (page CG-AC&I-4).

    Mr. Larsen. Yes, all right. Great. And with that, Mr. 
Cummings, I would yield the remainder of my time to Mr. 
Cummings.
    Mr. Cummings. Well, thank the gentleman. Tell me about how 
we are doing with the Academy. We made great strides a few 
years ago, and they worked with the Navy, and I was very proud 
of what the Coast Guard did. And I just wanted to know whether 
we are continuing that.
    Admiral Neffenger. Yes, sir. Actually, we have made 
significant strides. I can get you specific numbers for the 
record, because I don't have them off the top of my head. But 
this is, I know for a fact, the most diverse class the Academy 
has ever seen. And it is also a class with the greatest number 
of women cadets ever, this entering class this past year. And 
so we thank you for your attention to that and your ongoing 
concerns in that.
    Mr. Cummings. You know, back--you know, there was a time 
when a lot of arguments were made and they were very insulting 
to me, personally, and I am sure to many people. And when folks 
said that if you made your class more diverse, the standards 
would be going down. That would be class--you know, the SATs 
would be lower, and all that. That has not been the case, has 
it?
    Admiral Neffenger. No, sir. We have not lowered the 
standards for----
    Mr. Cummings. And I am talking about your classes still 
have high SATs, very high SATs----
    Admiral Neffenger. Yes, sir. Yes, sir.
    Mr. Cummings. Thank you very--and I really appreciate it, 
Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Hunter. Thank the gentleman. We are going to go through 
another round of questions, and I would like to recognize Mr. 
Southerland again.
    Mr. Southerland. Thank you, Mr. Chairman. I was not 
familiar, I wasn't serving on this committee when you shared 
the story about SCPO Horne. I am curious. It just prompted a 
question regarding operations.
    When dangerous missions like that, obviously, are being 
performed, how do you determine what vessels you board? And 
just--and I know this is probably an elementary question, but I 
am asking. When you go out in the dark of night on the open 
water, I mean, what is the determining factor in boarding a 
boat?
    Admiral Neffenger. Well, in this case--so I will speak to 
this specific case, and then general. In this case, this was an 
intelligence-cued boarding. So there was intelligence that a 
vessel of this type--and when I say panga-type vessel for--just 
for the benefit of those who may not know what that is, this is 
an open-style boat. In this case, this boat was some 40 feet in 
length. And these are open, and they are really designed to 
move quickly through the water with a load of drugs or a load 
of--or smuggling people. They are just a big open boat with 
high-horsepower outboards on the back, anywhere from one to 
three outboards, sometimes four outboards. And they typically 
run up in the dark of night along the coast of California, 
coming up from Central America.
    And so this one, particular one, was we had some 
intelligence that there was a vessel of this type out there. We 
generally knew where to find that vessel. And it resulted in 
that boarding. And so this was a boarding that we suspected 
this was a bad agent, a bad actor, we go prepared to deal with 
what may be an unsettled situation, in that case.
    In other cases, when we are just out patrolling, we may 
come across--in some senses, everything is intelligence-cued, 
because we know that there are areas where we have greater risk 
of people smuggling drugs and migrants. And so we concentrate 
our forces in those areas. But sometimes it is a concentration 
of forces that then discover activity, not necessarily a 
specific target to that vessel. And in that case, we may have 
to go investigate the vessel. So you may not know that you have 
got an actual bad actor, but you may want to go take a look at 
this bad actor. And that may come from cuing from aircraft or 
cuing from human intel on the ground, sir.
    Mr. Southerland. If the--but as far as--I mean, obviously, 
if you have longliners, boats that are operating, they are 
businesses in open water. And I understand you do inspections 
of those vessels, and I understand that. The process by which 
you do that, though, is it a--I mean is that a forewarned 
process, or do they know, or does a boat just--you know, do you 
come up beside them? I mean how does that----
    Admiral Neffenger. You know, it depends on the type of 
activity we are talking about. So fisheries----
    Mr. Southerland. A longliner. I mean----
    Admiral Neffenger. I mean, fisheries, that is a kind of a 
unique situation. We are responsible for enforcing U.S. 
fisheries laws in U.S. waters, as well as we have certain 
international treaty obligations to ensure that what is called 
illegal, unreported, or unregulated fishing doesn't go without 
notice.
    And so these, a longliner or a--high-seas driftnet fishing 
is a good example. People who are putting these--essentially 
these killing machines out into the water that can be 50, 60 
miles in length, and they just indiscriminately pick up marine 
life, that is illegal by definition around the world.
    And so, there are planned inspections, where a vessel knows 
they are going to get inspected, they can expect to be 
inspected, and then there are the routine--or essentially the 
routine inspections. And then there are the unplanned, or 
nonroutine spot checks, if you will. So it could be either. 
Most times you gain compliance through voluntary measures and 
through regular periodic inspections. And then you do spot 
checks, just the way any law enforcement agency would do, to 
ensure that you don't have a bad actor out there.
    Mr. Southerland. Thank you very much, and that was just 
from my personal knowledge of how you operate.
    My colleague on the other side alluded to my not 
understanding the seriousness of sequestration and the 
decommissioning of ships. As a small business owner, a three-
generation small business that my grandfather started, I see 
decommissioned small businesses all over America going out of 
business. And when a small business run by a family, when they 
have employees that depend on a paycheck, when they are put out 
of business--for a lot of reasons, but clearly because of the 
cost of doing business, and it is estimated that a small 
business with 20 employees has regulatory costs of over $10,000 
per employee--it gets a little bit difficult to hear some of 
the things that I have heard.
    So, I just want to make it very clear. I understand a lot 
about decommissioning, and in my world, the decommissioning of 
small businesses, because of the cuts and the pressures of 
having to operate in the current environment, as it relates to 
sequestration and the 2-percent cut.
    So, with that, thank you, Admiral, and I yield back.
    Mr. Hunter. Thank the gentleman. Mr. Garamendi is 
recognized for 5 minutes.
    Mr. Garamendi. Thank you, Admiral. I don't believe you run 
a small business. You run a critical part of the U.S. 
Government's effort to maintain commerce and safety. It is not 
a small business.
    Early on it was described that you might be able to deal 
with sequestration by dealing with certain administrative and 
travel cuts. Is that the only reduction that you will be 
facing? Or will you be facing reductions in operations such as 
maintenance, and port inspections, inspections of cruise ships, 
and the like?
    Admiral Neffenger. You know, sir, we are a pretty lean 
organization to begin with. So there is not a lot of places to 
go for administrative overhead. We try to ensure that we have 
as little overhead as possible in our organization, and we put 
our activities to frontline operations.
    So, any cut to operational dollars is obviously going to be 
a cut to certain types of operations. Our goal is to ensure 
that the most important and most critical frontline operations 
are not affected. So we don't intend to pull any aircraft or 
vessels offline. We don't intend to fail to meet our 
responsibilities for rescuing people in distress and for 
responding to emergencies.
    But there will be--there will obviously have to be some 
impacts to our other operations. And those impacts are in the 
form of things like additional deferred maintenance, perhaps 
additional deferred what we might consider nonessential 
training. And when I say ``nonessential training,'' I mean 
training that doesn't directly go towards maintaining 
proficiency in aircraft, cutters, and boats, and other such 
things.
    Mr. Garamendi. I would appreciate you delivering to the 
committee a detailed accounting of changes in operations, 
maintenance, administrative overhead, and other activities as a 
result of sequestration. Also, sequestration, together with the 
continuing resolution, has the unfortunate effect--or, 
depending on where you are coming from, the fortunate effect--
of changing your baseline to a lower level. And I would like to 
have an accounting, an estimation, of what that means, going 
forward. I suspect it will have some significant impact.
    [The Coast Guard submitted the following information for 
the record:]

        The following table summarizes the Coast Guard's 
        budgetary reductions under sequestration:


------------------------------------------------------------------------
                                       USCG
             Account                Baseline*      Sequestered Amount
------------------------------------------------------------------------
Operating Expenses (includes OCO)       $3,576                    - $195
Environmental Compliance &                 $14                      - $1
 Restoration.....................
Reserve Training.................          $36                      - $2
Research, Development, Testing &           $26                      - $1
 Evaluation......................
Acquisition, Construction &             $1,681                     - $85
 Improvement**...................
Maritime Oil Spill Program.......         $101                      - $5
Oil Spill Liability Trust Fund...          $45        [Included in other
                                                                 totals]
Boat Safety......................         $116                      - $6
                                  --------------------------------------
  Total..........................       $5,595                    - $295
------------------------------------------------------------------------
* Data reflects the Office of Management and Budget's Report to the
  Congress on the Joint Committee Sequestration for FY2013 provided to
  Congress on 3/1/2013, and are based on FY2012 enacted funding levels
  (excluding exempt funding).
** Reflects FY2013 AC&I Hurricane Sandy Disaster Supplemental funding
  ($274M) and associated reduction.

        Under sequestration, reductions will require the Coast 
        Guard to curtail air and surface operations by 
        approximately 25 percent below planned levels, 
        affecting maritime safety and security across almost 
        all mission areas. This means reducing hours related to 
        drug and migrant interdiction, fisheries and other law 
        enforcement, aids to navigation maintenance and other 
        activities involved in the safe flow of commerce along 
        U.S. waterways. To meet the budgetary reductions 
        imposed by sequestration, the Coast Guard will also 
        reduce administrative/overhead functions and travel, 
        defer lower priority planned asset maintenance, and 
        postpone job/technical training activities. The Coast 
        Guard's objective under sequestration is to preserve 
        the ability to meet the highest priority mission 
        activities, including search and rescue, critical 
        security operations, and emergency response.

    Mr. Garamendi. One final--that is the final question. Thank 
you, Mr. Chairman.
    Mr. Hunter. I thank the gentleman. I would like to weigh in 
here and ask. You say you are going to take a 21-percent cut 
because of sequestration, and most of that is going to go 
towards operational capability?
    Admiral Neffenger. Well, we haven't put a specific number 
on it. I know that the Secretary has testified that it could be 
as much as 25 percent. As I said before, we are really still 
knocking around the specific details as we get closer to the 
potential for sequestration----
    Mr. Hunter. But I understand you are not going to do any 
civilian furloughs, is that right?
    Admiral Neffenger. We hope not to furlough any of our 
civilian workforce.
    Mr. Hunter. But in exchange you would cut operational 
capability, right?
    Admiral Neffenger. Well, no. As I said, we are trying not 
to cut any frontline operational capability, as well.
    The challenge is that simply furloughing individuals does 
not necessarily provide us with the operational capability we 
need. It is the way in which the monies are distributed in our 
budget----
    Mr. Hunter. Well, I think Admiral Papp has already told me 
if you have sequestration--I think you have three ships in 
South America. Is that true? How many ships have you got down 
in South America, running----
    Admiral Neffenger. Well, we----
    Mr. Hunter [continuing]. Drug interdiction?
    Admiral Neffenger. Well, we--it depends on the time of 
year. I would prefer not, in open session, to talk about 
specifically what our lay down is.
    Mr. Hunter. OK.
    Admiral Neffenger. But we have--we have had to--we will 
adjust that. That adjusts on a regular basis, as it is. I 
suspect that we will have to adjust our present----
    Mr. Hunter. But I understand that is going to be impacted 
by sequestration.
    Admiral Neffenger. It is----
    Mr. Hunter. And that is an operational capability.
    Admiral Neffenger. That is an operational. Yes, sir.
    Mr. Hunter. OK.
    Admiral Neffenger. Yes, sir.
    Mr. Hunter. Ms. Hahn?
    Ms. Hahn. Thank you, Mr. Chairman. Actually, I had two 
more, but we talked a lot about the panga boat threat. I am 
glad we are talking about it in this committee. I will give 
kudos to my colleague, Dana Rohrabacher, who invited the 
chairman of the Committee on Homeland Security, Mike McCaul, 
to, 2 weeks ago, go to the Ports of Long Beach and Los Angeles 
to learn some of the issues that we have in security. But they 
got a personal demonstration of one of the panga boats and what 
it means.
    That incident happened right off the coast of Rancho Palos 
Verdes, right where I live. And I think this is a growing 
threat, particularly on the west coast. They are smuggling 
people, they are smuggling drugs, they are smuggling potential 
weapons. And the threat of terrorism, I think, is very clear. 
So I hope you continue to give us an update on what the Coast 
Guard is doing to handle that.
    But while I have you here, one of the things I was thinking 
about when you were talking about the mission of the Coast 
Guard was, of course, one of your number one priorities, is to 
rescue those who are in distress upon our waters. And there was 
no more visible symbol of 4,000 people in distress on our ocean 
than the Carnival Cruise Line a couple of weeks ago. The whole 
country, the whole world, was watching that as it was unfolding 
daily. Certainly it was about folks who have chosen to recreate 
on our waterways. But for someone, again, who represents 
ports--and I have started this bipartisan port caucus--the 
cruise industry in Long Beach and Los Angeles is very key to 
our economy and our jobs. I think that incident set back the 
cruise industry probably a decade.
    I know there is probably an investigation going on on what 
went wrong, what we can do to prevent it in the future. Maybe 
you can give us just a little bit of what your--what we have 
learned, what we can do to prevent that, how the Coast Guard 
works with the cruise ship industry. I was--you know, just 
watching it on TV--I didn't understand why we couldn't--I know 
the Coast Guard, I think, came alongside and helped to provide 
supplies. Was there talk about actually rescuing those people, 
getting them off the ship?
    I also was dismayed at the tug and the line that was used 
to tow that cruise ship. Did we not have in our arsenal, with 
the Navy or the Coast Guard, some more industrial-strength tow 
line or tug? Is that all we have to tow a vessel of that size? 
That was distressing to me, that we didn't deploy some giant 
Navy tug or some other Coast Guard vessel to pull that ship to 
where it went. That was--it felt a little like we were, you 
know, using, you know, a breakable tow line to tow these 
people.
    And again, I felt these people were in distress. Thank God 
no one perished. But this was clearly people in distress on the 
water, and it didn't look like we did all we could do to 
actually get those people to--either off the ship or to shore 
quicker. What do you think?
    Admiral Neffenger. Well, let's see if I can tackle some of 
those. Let me start with your last point, with respect to the 
towing. I will tell you there is no--there is nothing in the 
Federal Government that has the capability to tow that a large 
commercial towing vessel does. So you are always better off 
going to a large commercial towing vessel. This is a big ship, 
though. There is a lot of mass there. So it is not surprising 
that you could occasionally part a tow line. That happens 
sometimes. The good news is is they were able to get it back in 
tow and to carry it in.
    With respect to taking people off the vessel, I--you know, 
we always start from the assumption that the ship itself is the 
best lifeboat. So if you don't have to remove people, even if 
they are uncomfortable, even if they are dealing with 
unpleasant, perhaps even unsanitary at times situation, they 
are still safer on board the vessel than they would be 
attempting to take them off that vessel at sea. If you think 
about an at-sea transfer, it can be challenging. As someone who 
has done a couple at-sea transfers myself, as they move me from 
one ship to another, it is--it can be a challenging evolution. 
And when you think about doing that with, you know, up to 4,000 
people, many of whom are not sailors, are not familiar with 
operations at sea, that can be challenging.
    So, I think you rightfully note that the good news is is 
that there was nobody killed, nobody injured, and only one 
person that I think that was removed for medical reasons, but 
unrelated to the accident.
    As to how the investigation proceeds, as you know that is a 
Bahamian-flag vessel. So the Bahamas does have the authority to 
conduct--and the responsibility to conduct--an investigation. 
We also have responsibility to conduct an investigation. And, 
in fact, there are a number of Coast Guard investigators, along 
with National Transportation Safety Board investigators on 
board that vessel in Mobile, conducting the investigation.
    So we will conduct our own investigation in concert with 
the Bahamians, as well as we have the option to do our own 
independent report. And we are looking at exactly what 
happened. We may have some specific reason it happened. You 
know, the--I think there was a speculation that there was a 
hole in a fuel line. But as to how that hole got there, and 
what the procedures were, and all of the chain of events 
leading up to that, that is yet to be determined. But we are 
going to be very interested in that.
    And we are going to be interested to see whether we learn 
something about the construction of cruise ships that we may 
need to change, or that we may need to alter in--as we look to 
construct new vessels and/or look at existing vessels in 
operation. All of that may come out of that investigation.
    But we are very interested in how these ships operate. We 
work very closely through the International Maritime 
Organization to set appropriate international standards for 
safety of life at sea, and that includes the way in which 
vessels are constructed, their ability to withstand casualties 
at sea, their ability to withstand fires, their ability to 
protect the people who are on board that vessel.
    And so, while exceedingly unpleasant for those folks on 
board--and I would not want to have been one of those 
passengers over that 4- or 5-day period that it took to get 
them back to Mobile--I am happy that they were able to survive 
that with minimal long-term effect. And again, we will be 
interested in seeing what the investigation reveals, and what 
our investigators discover in the process of that 
investigation.
    Ms. Hahn. Thank you. I appreciate that. But that is a 
little disconcerting, that that is our best form of towing that 
we have, currently, on the open seas. Because, as you said, 
that was a big vessel, but we do big vessels in this country.
    Admiral Neffenger. Well, and----
    Ms. Hahn. If we were to have another incident or major 
disaster and a large vessel became incapacitated, that is a 
little bit distressing, that that is our best mode of towing.
    Admiral Neffenger. Yes, ma'am. And the investigation will 
look at that aspect, as well. So there may be some 
recommendations that come out of that, as well.
    Ms. Hahn. I would hope so.
    Mr. Hunter. Thank the gentlelady for her question, and we 
do look forward and trust the NTSB and the Coast Guard to 
conduct a good investigation of what happened.
    One final thing here. I would leave you with this, Admiral. 
The Coast Guard budget just about doubled over the last decade. 
About a quarter of a billion dollars was lost--and I wasn't on 
this committee, I got elected in 2008, but about a quarter of a 
billion dollars was lost because of acquisition and procurement 
boondoggling with Deepwater. You got that on track now.
    I would give you the same words that I give my DOD friends. 
I served in the Marine Corps three tours overseas: two in Iraq 
and one in Afghanistan. Never floated, flew over every time, 
unfortunately, so I didn't get the marine part of the Marine 
Corps. But I would do everything that you can, and I would 
advise the Coast Guard to do everything that they can to keep 
operational capability where it is now, especially your 
homeland security missions and your search-and-rescue missions. 
I think, you know, that is what you are there to do.
    And I know it is easy to try to make us--get us worried and 
get the American people worried and say, ``This is what is 
going to happen under sequester, and the sky is going to 
fall,'' but I think when you have a budget double in the last 
decade, and a lot of your resources went to nothing a while 
back--but that has all been straightened out now--I think it is 
incumbent upon the Coast Guard to make sure that they do what 
the American public expects of them, even with--if you lose 
$200 or $300 million out of this year's budget with sequester 
going forward, I think it is--you are going to have to be 
prepared, always be prepared, and just make it work.
    So, with that, thank you for your time, thank you for your 
service to your Nation. And with that, the hearing is 
adjourned.
    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]

</pre></body></html>
